Report on Audit of the Inter-American Foundation’s
Consolidated Financial Statements, Internal Control,
and Compliance for the Fiscal Years Ended
September 30, 2003 and 2002

Audit Report No. 0-IAF-04-003-C

November 14, 2003




                  Washington, D.C.
November 14, 2003


MEMORANDUM

FOR:           Inter-American Foundation President,
               David Valenzuela

FROM:          AIG/A, Bruce N. Crandlemire /s/

SUBJECT: Audit of the Inter-American Foundation’s Financial Statements,
Internal Control, and Compliance for the Fiscal Years Ended
September 30, 2003 and 2002 (Report No. 0-IAF-04-003-C).

Enclosed is the final report on the subject audit. We contracted with the independent
certified public accounting firm of Gardiner, Kamya & Associates, P.C. (GKA) to
audit the financial statements of the Inter-American Foundation as of September 30,
2003 and 2002 and for the years then ended. The contract required that the audit be
performed in accordance with generally accepted government auditing standards;
Office of Management and Budget’s (OMB) Bulletin, Audit Requirements for
Federal Financial Statements; and the General Accounting Office/President’s
Council on Integrity and Efficiency Financial Audit Manual.

In its audit of the Inter-American Foundation (IAF), Gardiner, Kamya &
Associates found;

       • the financial statements were fairly presented, in all material respects, in
          conformity with U.S. generally accepted accounting principles,

       • IAF had effective internal control over financial reporting (including
         safeguarding assets) and compliance with laws and regulations,

       • IAF’s financial management systems substantially complied with the
         requirements of the Federal Financial Management Improvement Act of
         1996 (FFMIA), and

       • no reportable noncompliance with laws and regulations it tested.




                                        1
In connection with the audit contract, we reviewed GKA’s report and related
documentation. Our review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, opinions on IAF’s financial statements or internal
control or on whether IAF’s financial management systems substantially complied
with FFMIA; or conclusions on compliance with laws and regulations. GKA is
responsible for the attached auditor's report dated October 24, 2003 and the
conclusions expressed in it. However, our review disclosed no instances where GKA
did not comply, in all material respects, with applicable standards.

The report does not contain recommendations and IAF has elected to not formally
comment on the report.

The OIG appreciates the cooperation and courtesies extended to our staff and to the
staff of GKA during the audit. If you have questions concerning this report, please
contact Andrew Katsaros at (202) 712-4902.




                                       2
Table of
           Independent Auditor’s Report   5
Contents




                                  3
This page intentionally left blank.




                 4
INTER-AMERICAN FOUNDATION
           (IAF)




         FINANCIAL STATEMENTS
        SEPTEMBER 30, 2003 and 2002

                   and

 INDEPENDENT AUDITOR’S REPORT THEREON




                    5
                                     INTER-AMERICAN FOUNDATION (IAF)


                                                   TABLE OF CONTENTS



                                                                                                                  Page No.

Management’s Discussion and Analysis (Overview) ....................................................... 7

Independent Auditor's Report on Financial Statements.................................................. 15

Balance Sheets ................................................................................................................ 16

Statements of Net Cost.................................................................................................... 17

Statements of Changes in Net Position........................................................................... 18

Statements of Budgetary Resources................................................................................ 19

Statements of Financing.................................................................................................. 20

Notes to Financial Statements.......................................................................................... 21

Independent Auditor's Report on Internal Control ......................................................... 31

Independent Auditor's Report on Compliance with Laws and Regulations ................... 33




                                                                      6
                 Inter-American Foundation



Message from the President

The IAF was founded upon the notion that citizens, governments, the private sector, and other
societal institutions share responsibility for development problems and can contribute to solving
them. IAF experience has validated that premise consistently over time. Indeed, the IAF has
concluded that government action unaccompanied by the demonstrated participation,
willingness, and commitment of others is unlikely to succeed.

The IAF thus came to believe that the best use of government funds was as a catalyst for action
and mobilization of other resources. The IAF holds that development programs lacking
community support do not merit U.S. taxpayer assistance. Applying this fiscal and
programmatic discipline has helped the IAF remain true to its unique approach toward
development theory and practice.

Having focused on increasing participation of the poor for more than three decades, the IAF
wondered whether the same principles could be applied on the donor side of the development
equation. In Fiscal Year 2003 the IAF—while maintaining its commitment to incorporating the
marginalized into the development process--focused on expanding the participation of other
donors. The kind of donor participation the IAF seeks to cultivate extend beyond simply writing
a check; it involves knowing and understanding more about the communities being helped and
learning about the contributions the communities are making. Several examples of that effort
follow.

One element is a network of corporate foundations, which is contributing approximately $1.6
million in joint funding with the IAF (which will be augmented by counterpart contributions at
the subgrant level). This group of donors is of critical importance; its involvement in the
development process represents a fundamental change in the region’s economic and social status
quo.

The IAF is now seeking a ruling from the IRS that grant funds channeled through the IAF meet,
per se, the expenditure responsibility requirements for U.S. foundations. Such a ruling would
enable the IAF to mobilize funds from the U.S. foundation community in a public-private
partnership of possibly enormous significance—financially, programmatically and educationally.

The IAF’s work in the area of transnationalism (explored below) also demonstrates the growing
sphere of productive relationships the IAF has cultivated. In addition to helping families and
communities use remittances more effectively, the IAF’s role in raising awareness among
policymakers has earned it a seat at a number of important conferences and high level meetings.

I am pleased to introduce the IAF’s Fiscal Year 2003 financial statements, which reflect the
IAF’s quest to become increasingly innovative and independent while adhering to its core
principles.


                                                7
                      MANAGEMENT DISCUSSION AND ANALYSIS

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots and local development programs. The IAF
learns from its experience, and uses the lessons learned to improve its own grantmaking
decisions and to advance the knowledge and success of development practitioners, donors, and
policy makers.

Mission and Organizational Requirements

Congress created the IAF in 1969 to carry out the following mission on behalf of the American
people:

       Strengthen the bonds of friendship and understanding among the peoples of this
              hemisphere;

       Support self-help efforts designed to enlarge the opportunities for individual
             development;

       Stimulate and assist effective and ever-wider participation of the people in the
              development process;

       Encourage the establishment and growth of democratic institutions, private and
             governmental, appropriate to the requirements of the individual sovereign nations
             of this hemisphere.

The IAF strategic plan for 2003-2007 and the Fiscal Year 2004 presentation to the Office of
Management and Budget were based on four main institutional goals derived from this statutory
basis, 30 years of experience and the current context:

       Support the most promising and innovative means to foster sustainable grassroots and
             local development and economic independence.
       Foster communication, learning and reflective practice.
       Make the most of available resources (efficiency, counterpart).
       Be the preeminent organization in the areas of grassroots development and
              participatory democracy in Latin America and the Caribbean.

Central to the IAF's approach to development is its posture of responsiveness. IAF neither
designs nor implements projects. Rather, it responds with attentiveness, analysis, and, when
approved, grant funds for development ideas and projects designed by community level
organizations and local non-governmental organizations in Latin America and the Caribbean.
Listening to and supporting the best development ideas coming from the grassroots is the most
important way in which IAF achieves all four of the goals assigned to it in the original
legislation.

The IAF seeks to reflect the values it fosters. In both the programs it supports and its internal
processes, the following principles are essential: innovation, partnership, self-sufficiency,
democratic practices, and social responsibility.

                                                 8
The IAF carries out its work based on three main instruments: grant-making, results
measurement and dissemination, and learning activities.

Performance Goals, Objectives, and Results

Grants promote the formation of partnerships among grassroots and private organizations, local
governments and businesses to define and resolve issues of local concern that help reduce
poverty and improve the quality of life of people. The IAF also helps to build the institutional
capacity of grassroots organizations to address the social and economic needs of their members.

The IAF’s Grassroots Development Framework provides each grantee with a means of setting
goals to be achieved in the development project and provides a balanced mechanism for
reporting results. This information is aggregated to permit broader analysis.

The networking of persons and the building of linkages help small producers gain access to
markets and forge partnerships for mutual benefit. Both local and international businesses are
critically important stakeholders in their respective communities and should play an active role
for the betterment of the community. In this respect, the IAF continues to seek out a broad range
of relationships with corporations and other businesses to bring their resources and ideas to bear
on the solutions of local problems.

The strengthening of democracy, in addition to building strong national institutions that can
guarantee the rule of law, also requires engaged and active citizens at the local level. The IAF is
making a far-reaching contribution to forging more democratic, just, and less impoverished
countries in Latin America and the Caribbean through its work at the grassroots level.

Illustrative Projects Funded in Fiscal Year 2003

Over the past 30 years, IAF-financed projects have benefited from contributions from immigrant
groups in the United States. In Fiscal Year 2003, the IAF formally recognized this trend by
making grants to two non-governmental organizations (NGOs) to support El Salvadoran
communities with the help of their corresponding Home Town Associations (HTAs) in the
United States. Community groups and HTAs aim to build cooperative relationships and
establish economic development projects in El Salvador. These groups will promote valuable
cross-border ties through which flow not only funds for development, but also knowledge, skills,
ideas, products, opportunities, and access.

   Fundación Centroamericana para el Desarollo Humano Sostenible (FUCAD) will work
   closely with El Rescate, a multi-service organization whose clients are immigrants living in
   Los Angeles. El Rescate will help six HTAs of El Salvadorans in Los Angeles collaborate
   with organizations in their communities of origin to identify development projects and
   contribute toward their funding. FUCAD will provide training and technical assistance to the
   Salvadoran committees, strengthening their organizational capacity and their ability to
   negotiate with the U.S.-based associations. Several projects will target economic
   development, and the grant incorporates a fund for start-up capital. The Government of El
   Salvador’s new HTA-partnership program will provide funds to support the projects through
   the Social Investment Fund for Local Development.


                                                 9
   CARECEN International – El Salvador (CARECEN) will help to form new HTAs in the
   United States, which will become a resource for El Salvadoran communities. CARECEN will
   identify potential partners among Salvadorans now living in the U.S., who can organize
   HTAs and help with “remittances” of funds, ideas, and skills that can improve conditions in
   the counterpart Salvadoran communities. CARECEN will also implement a number of small
   scale development projects selected from municipal development plans. This innovative
   project will be documented through two books on the intersecting themes of local
   development and migration. Fundación Nacional para el Desarrollo (FUNDE) a previous
   IAF grantee with extensive experience in local development and migration, will provide local
   development planning, documentation and evaluation, and will assist in building alliances at
   the local level.

   Grants Funded in Fiscal Year 2003

   In Fiscal Year 2003 the IAF funded $7,027,000 in grants of appropriated funds and
   $8,945,000 in grants of Social Progress Trust Funds, for a grand total of $15,972,000. The
   grants (both new and supplemental) are divided among primary program areas as follows:

   Business Development/Management           23 grants for a total of $5,660,000
   Food Production/Agriculture               25 grants for a total of $3,023,000
   Education/Training                        18 grants for a total of $2,798,000
   Corporate Social Investment               16 grants for a total of $2,000,000
   Community Services                         7 grants for a total of $1,338,000
   Ecodevelopment                             4 grants for a total of $ 657,000
   Cultural Expression                        3 grants for a total of $ 440,000
   Research & Dissemination                   3 grants for a total of $ 56,000

Grants were divided geographically among Argentina, Bolivia, Brazil, Caribbean (Regional),
Chile, Colombia, Dominican Republic, Ecuador, El Salvador, Guatemala, Honduras, Jamaica,
Latin America (Regional), Mexico, Nicaragua, Panama, Perú, Trinidad, Uruguay and Venezuela.

Evaluation and Dissemination

The IAF is committed to sharing the experiences and learning of grantees. By tracking results
and studying organizations, the IAF is able to gain insight into what works in the development
process. The Evaluation Unit is housed in the Office of Operations to provide independence from
the Office of Programs and to allow for close interaction with the staff responsible for the IAF’s
Grant Evaluation and Management System (GEMS) database. The Evaluation Unit continues to
focus on perfecting the Grassroots Development Framework (GDF), incorporating grant results
into GEMS, developing a new capacity to utilize GEMS for studies and comparative analysis,
and implementing a steady schedule of grant evaluations. The Evaluation Unit also participates
with other Foundation offices in special learning activities, conferences, and dissemination
activities.

The IAF also supports training and other programs, such as exchanges among grantees, to
increase their ability to learn from each other. The sharing of knowledge among those similarly
situated is a powerful force in development. Moreover, many former IAF fellows and other
trainees are now in positions of national and international authority.


                                               10
                                       Fiscal Year 2003

               Analysis of Financial Statements and Stewardship Information
                          Systems, Controls, and Legal Compliance

During Fiscal Year 2003, the shift IAF initiated during Fiscal Year 2000 toward a more
externally oriented, programmatically focused organization was fully realized. Management’s
overarching concern for Fiscal Year 2003 was increasing the IAF’s independence by expanding
the function and range of partnerships with other organizations—both public and private.

Budgetary and Accounting Functions

The final steps of (a) franchising the budgetary operations to the same provider that performs
accounting services and (b) consolidating internal operations in one office under executive
supervision marked the final step in overhauling the way the IAF does business. The positive
results are evidenced by the number of inquiries from other agencies seeking to emulate the
IAF’s approach.

Over the past several years, the Inspector General, independent auditors and senior IAF staff
have often discussed how the IAF could maintain effective oversight over outsourced services.
The Office of Operations, established at the close of Fiscal Year 2002, was designed with those
discussions in mind. The Office’s work encompasses budget, audit, human resources,
procurement, general services, information technology, translations, archiving and evaluation.

Expanding Participation of Donors

As noted, the Foundation helped leading corporate foundations in Latin America and the
Caribbean to form a network of private sector businesses committed to reducing poverty by
working at the grass roots. Following just one year of operation, the network has established
itself as an ideal vehicle for businesses to contribute to communities, a standard-bearer in
operational capacity and a key source of information worldwide.

In fact, the network has been so popular among corporate Latin America that a group of CEOs
from the region’s most prominent companies have formed a committee to publicize the role
corporations can play in reducing poverty and to engage in dialogue with governments and civil
society.

The IAF is also poised to launch a guarantee fund that would provide desperately needed loan
capital to organizations that provide credit to micro and small businesses. Partners in the fund
may include the Multilateral Investment Fund of the Inter-American Development Bank, one or
more private investors and an experienced Swiss organization affiliated with Union Bank of
Switzerland that could perform as the operating partner.




                                               11
Looking Forward

The IAF will continue to play a catalytic role in grassroots and local development and the
practice of democracy, seeking an ever widening range of participants and an ever growing
audience. The IAF will test new ways of facilitating funding for grassroots and local
organizations to carry out their ideas for improving their quality of life. In that regard, the IAF
seeks to provide new services to new and small U.S. foundations that direct funding to IAF-
funded projects, to cooperate with large and established U.S. foundations to enhance the
comparative advantages of each institution, and to pursue the corporate foundation network
already underway. The IAF continues to work within the Administration as it develops the
Millennium Challenge Corporation and its policies. The IAF will expand its learning and
dissemination activities to make available to the public, social investors, academics, government,
business, practitioners and philanthropists information on the many opportunities that await them
should they wish to participate.

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during
the year. Program costs of $22,218,502 reflected a decrease from the Fiscal Year 2002 amount
of $23,057,518, a reduction of $839,016 in resources used.

Personnel compensation and benefits increased from $3,875,003 in Fiscal Year 2002 to
$4,547,047 in Fiscal Year 2003, reflecting the replacement of key personnel lost during previous
fiscal years. This reflects an increase of approximately 17 percent, a difference of $672,044.

In Fiscal Year 2003, Contractual Services reflected resources used of $2,451,804. The
difference of $306,556 from Fiscal Year 2002, which reported $2,145,248 in resources used,
reflects an increase of approximately 14 percent. A factor contributing to this change is the
obligation of a new contract to conduct independent evaluations of select program grants as well
as cost increases in inter-agency agreements for franchise services.

Improved use of resources reflected improvements in costs of Printing and Reproduction (for the
second subsequent year), Transportation of Things and Insurance Claims and Indemnities.
Grants and Subsidies noted a decrease of $1,707,961 in Fiscal Year 2003. This reflects the fact
that IAF Grantees requested fewer disbursements in Fiscal Year 2003.




                                                12
                       FY03 NET COST OF IAF CORE FUNCTIONS

                            Operating
                                              Personnel
                            Services
                                              20%       Rent
                            3%
                                                        2%
                 Other
                 Program
                 Activities
                 11%




                                                          Grants
                                                          64%




Fiscal Year 2003 noted $24,730,253 in Obligations Incurred. As shown in the Pie Chart below,
Delivered Orders was $21,019,030, representing 85% of Net Obligations Incurred. Undelivered
Orders was $3,711,123, representing 15% of Net Obligations Incurred.

                                          ,
                           FY03 NE T OBLI GAT I ONS I NCURRE D

                                                              Undelivered

                                                      ,        Orders --
                                                              Obligations
                                                               Incurred,
                                                              $3,711,123




                            Delivered
                            Orders --
                           Obligations
                              Paid,
                           $21,019,030




                              Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury for Fiscal Years 2003 and 2002 were
$38,451,341 and $28,716,567, respectively. The difference of $9,734,774 reflects an increase in
the Social Progress Trust Fund (SPTF) collections in FY 2003 and a cancellation of $597,762 in
Fiscal Year 1997/1998 appropriated funds, which expired in FY 2003. The SPTF agreement was
amended during Fiscal Year 2002 to provide all remaining funds to the IAF until they are

                                              13
exhausted, in approximately 15 years. See Note One D in the Financial Statements for funding
source and Note Nine for funds received from SPTF in FY2003.

                           Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3513. While the statements
have been prepared from the books and records of the entity in accordance with the formats
prescribed by the Office of Management and Budget, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the
same books and records.




                                               14
Independent Auditor's Report on Financial Statements

Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.

We have audited the accompanying Balance Sheet of the Inter-American Foundation (IAF), a
U.S. Government Corporation, as of September 30, 2003 and 2002, and the related Statements of
Net Cost, Changes in Net Position, Budgetary Resources and Financing for the years then ended.
These financial statements are the responsibility of the management of the IAF. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and the Office of
Management and Budget Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the IAF as of September 30, 2003 and 2002, and its net costs, changes in
net position, budgetary resources, and the reconciliation of budgetary obligations to net cost for
the years then ended in conformity with generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements
referred to in the first paragraph of this report as a whole. The information presented in IAF
Management’s Discussion and Analysis (Overview) section is not a required part of the financial
statements but is supplementary information required by OMB Bulletin No. 01-09, Form and
Content of Agency Financial Statements. Although we have read the information presented, such
information has not been subjected to the auditing procedures applied in the audits of the
financial statements and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated October
24, 2003 on our consideration of the IAF's internal control over financial reporting, and on our
tests of its compliance with certain provisions of applicable laws and regulations. These reports
are an integral part of an audit performed in accordance with Government Auditing Standards,
and, in considering the results of the audit, these reports should be read in conjunction with this
report.

/s/

Gardiner, Kamya & Associates, P.C.

October 24, 2003


                                                15
                                     Inter-American Foundation
                                       BALANCE SHEET
                                     As of September 30, 2003


                                                                         2003                2002
ASSETS:
  Intragovernmental:
     Fund Balance With Treasury                                         38,451,341          28,716,567
     Total Intragovernmental                                            38,451,341          28,716,567

      Accounts Receivable                                                        0                1,084
      General Property, Plant and Equipment                                 16,115               21,554
      Other                                                              3,615,630            4,809,249

Total Assets                                                            42,083,086          33,548,454

LIABILITIES
  Intragovernmental
     Accounts Payable                                                          127                    127
     Other                                                                  34,767                 49,785
     Total Intragovernmental                                                34,893                 49,912

      Accounts Payable                                                      47,960                358,857
      Other                                                                635,861                770,451

Total Liabilities                                                          718,714            1,179,220

NET POSITION
Unexpended Appropriations                                               40,129,456          31,191,649
Cumulative Results of Operations                                         1,234,916           1,177,585
Total Net Position                                                      41,364,372          32,369,234

Total Liabilities and Net Position                                      42,083,086          33,548,454




                     The accompanying notes are an integral part of these financial statements.




                                                        16
                     Inter-American Foundation
                   STATEMENT OF NET COST
                 For the year ended September 30, 2003


                                                                 2003                 2002
Program Costs
   Intragovernmental Gross Costs                                 1,965,811            1,560,926

  Gross Costs With the Public                                   20,252,691           21,496,592
    Total Net Cost                                              22,218,502           23,057,518

Net Cost of Operations                                          22,218,502           23,057,518




                 The accompanying notes are an integral part of these financial statements.

                                                   17
     Inter-American Foundation
   STATEMENT OF CHANGES
        IN NET POSITION
  For the year ended September 30, 2003

                                                              2003                                        2002
                                               Cumulative                              Cumulative
                                                 Results              Unexpended         Results                  Unexpended
                                              of Operations          Appropriations   of Operations              Appropriations

Beginning Balances                                1,177,585             31,191,649         (109,288)                 42,323,583

Budgetary Financing Sources:
  Appropriations Received                                 0             16,200,000                 0                 13,110,674
  Other Adjustments (Recissions, etc.)                    0              (703,062)                 0                  (1,469,112)

  Appropriations Used                            21,813,840            (21,813,840)      22,773,496                 (22,773,496)
  Other Budgetary Financing Sources                   2,256                       0               0                                 0

Other Financing Sources:
  Imputed Financing from Costs Absorbed
  by Others                                         459,737                      0          189,895                                 0

  Other (Note 9)                                          0             15,254,710        1,381,000                              0
Total Financing Sources                          22,275,833              8,937,807       24,344,391                   (11,131,934)


Net Cost of Operations                           22,218,502                      0       23,057,518                                 0

Ending Balances                                   1,234,916             40,129,456        1,177,585                    31,191,649




                             The accompanying notes are an integral part of these financial statements.

                                                                18
Inter-American Foundation
STATEMENT OF BUDGETARY RESOURCES
For the year ended September 30, 2003

                                                                      2003                          2002
BUDGETARY RESOURCES:
Budget Authority
            Appropriations Received                                       16,200,000                   13,106,950
Unobligated Balance
            Beginning of Period                                              3,656,824                     9,749,523
Spending Authority from Offsetting Collections
            Earned
               Collected                                                  15,256,966                    1,384,724
Subtotal                                                                  35,113,791                   24,241,197
Recoveries of Prior-Year Obligations
            Actual                                                            265,411                      2,752,149
Permanently Not Available
            Cancellations of Expired and No-Year Accounts                    (597,762)                (1,464,112)
            Pursuant to Public Law                                           (105,300)                    (5,000)

Total Budgetary Resources                                                 34,676,139                   25,524,234

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred
            Direct
               Category A                                                 16,036,347                    6,338,154
               Category B                                                  8,693,906                   15,529,255
            Subtotal                                                      24,730,253                   21,867,409

Unobligated Balance
           Apportioned
              Balance, Currently Available                                     733,522                     2,090,491
           Other                                                             9,212,364                     1,566,334

       Total Status of Budgetary Resources                               34,676,139                   25,524,234

     RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
      Obligated Balance, Net, Beginning of Period                         25,059,743                   29,895,383

       Obligated Balance, Net, End of Period
           Undelivered Orders                                           (28,036,196)                 (24,106,399)
           Accounts Payable                                                (469,259)                    (953,344)

       Outlays
           Disbursements                                                  21,019,130                  23,950,900
           Collections                                                  (15,256,966)                  (1,384,724)

           Subtotal                                                          5,762,164                 22,566,176

       Net Outlays                                                           5,762,164               22,566,176
                       The accompanying notes are an integral part of these financial statements.

                                                        19
                                  Inter-American Foundation
                                STATEMENT OF FINANCING
                              For the year ended September 30, 2003

                                                                                     2003                        2002
Resources Used to Finance Activities
Budgetary Resources Obligated
                                                                                $                       $
                   Obligations Incurred                                         24,730,253              21,867,409
                   Less: Spending Authority from Offsetting Collections and
                   Recoveries                                                   (265,411)               (4,136,873)

                   Obligations Net of Offsetting Collections and Recoveries     24,464,842              17,730,536
Other Resources
                   Imputed Financing from Costs Absorbed by Others              459,737                 189,895

                   Other Resources                                                             0        1,381,000
                   Net Other Resources Used to Finance Activities               459,737                 1,570,895

Total Resources Used to Finance Activities                                      24,924,579              19,301,431

Resources Used to Finance Items Not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods, Services and

                   Benefits Ordered But Not Yet Provided                        (2,736,178)             3,662,136

Resources That Fund Expenses Recognized in Prior Periods                        1,084                             0


Total Resources Used to Finance Items Not Part of the Net Cost of Operations    (2,735,094)             3,662,136


Total Resources Used to Finance the Net Cost of Operations                      22,189,485              22,963,567

Components of the Net Cost of Operations That Will Not Require or
                 Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods

                 Increase in Annual Leave Liability                             23,579                  31,866
Components Not Requiring or Generating Resources

                   Depreciation and Amortization                                5,438                   41,179

                   Other                                                                 0              20,906
                   Total Components of Net Cost of Operations That Will Not
                   Require or Generate Resources
                                                                                5,438                   62,085

Total Components of Net Cost of Operations That Will Not Require or
                  Generate Resources in the Current Period                      29,018                  93,951

Net Cost of Operations                                                          $ 22,218,502            $ 23,057,518

                           The accompanying notes are an integral part of these financial statements.

                                                               20
                                     Inter-American Foundation
                                    Notes to Financial Statements
                          For the years ended September 30, 2003 and 2002

Note 1.      Summary of Significant Accounting Policies

A.        Reporting Entity

The Inter-American Foundation (The Foundation), a U.S. government corporation, was
established pursuant to part IV of the Foreign Assistance Act of 1969 (22 U.S.C. 290f (a)). The
Foundation provides grants to help non-governmental and community-based organizations in
Latin America and the Caribbean implement their own ideas for development and poverty
reduction.

The management of the Foundation is vested in a nine-person Board of Directors appointed by
the President of the United States. Six Board members are drawn from the private sector and
three from among officers or employees of agencies of the U.S. Government concerned with
inter-American activities. As of December 16, 2002, three private sector positions on the Board
were filled. The Board appoints the Foundation’s president who acts as the chief executive
officer.

B.        Basis of Presentation

These financial statements are provided to meet the requirements of the Government
Management and Reform Act (GMRA) of 1994. The statements consist of the Balance Sheet,
Statement of Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources
and Statement of Financing.

These financial statements have been prepared to report the financial position and results of
operation of The Foundation. These statements were prepared from the books and records of
The Foundation in conformity with accounting principles generally accepted in the United
States, and the Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content
of Agency Financial Statements.

The Statement of Budgetary Resources for Fiscal Year 2002 have been restated to comply with
OMB 01-09 disclosure requirements.

C.        Basis of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over use of Federal funds.

To assist OMB in recommending and publishing comprehensive accounting standards and
principles for agencies of the Federal Government, the Secretary of the Treasury, the
Comptroller of the United States, the Director of OMB, and the Joint Financial Management
Improvement Program (JFMIP) established the Federal Accounting Standards Advisory Board
(FASAB) in 1990. The American Institute of Certified Public Accountants (AICPA) Council
designated FASAB as the accounting standards authority for Federal government entities.

                                              21
                                       Inter-American Foundation
                                      Notes to Financial Statements
                            For the years ended September 30, 2003 and 2002

Note 1.      Summary of Significant Accounting Policies (continued)

D.        Funding Sources

The Foundation’s grant program is funded by (1) appropriation from the budget of the United
States, (2) agreement with the Inter-American Development Bank covering the Social Progress
Trust Fund (SPTF), and (3) donations from the private sector. No-year appropriations remain
available until expended, while multi-year appropriations are available for the period prescribed
by the applicable statute. Appropriations are used, within statutory limits, for programmatic,
operating and capital expenditures for essential personal property. Appropriations are
recognized as revenues at the time the related program or administrative expense are incurred.
Appropriations expended for capitalized property and equipment are recognized as expenses
when an asset is consumed in operations.

The Foundation has an agreement with the Inter-American Development Bank (IDB) to receive
funds from the SPTF to finance part of the Foundations grant program. The IDB is an
international financial organization established to promote the economic and social development
of member countries. The United States’ participation in IDB is authorized and governed by the
Inter-American Development Bank Act (22 U.S.C. 283). Within the Bank, the United States
established the SPTF in 1961 and provided appropriations to SPTF through 1964. The Bank was
designated as the administrator for the SPTF and committed the original SPTF appropriations to
loans. Repayments of these loans are recycled by the IDB in accordance with the original
agreement and subsequent provision for additional loans, technical cooperation programs, and
financing of the Inter-American Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, the Bank provides funds
to finance social development projects. These funds are made available in U.S. dollars upon
request by the Foundation, subject to denomination availability and exchange controls. In 2002,
the STPF agreement was amended to make available all remaining funds until exhausted.

E.     Fund Balance with Treasury

Funds with the Department of the Treasury primarily represent appropriated funds that are
available to pay current liabilities and finance authorized purchase commitments. See Note 2 for
additional information.

F.        Accounts Receivable

Intra-governmental accounts receivable represent amounts due from other governmental
agencies. Non-governmental accounts receivable represent amounts due from non-federal
entities.




                                               22
                                    Inter-American Foundation
                                   Notes to Financial Statements
                         For the years ended September 30, 2003 and 2002

Note 1.      Summary of Significant Accounting Policies (continued)

G.     Advances and Prepayments

Payments in advance of receipt of goods and services are recorded as prepaid charges at the time
of the prepayment and recognized as expenditures/expenses when the related goods or services
are received. See Note 4 for additional information.

H.     General Property, Plant, and Equipment, Net

The Foundation’s property, plant and equipment is recorded at cost and is depreciated using the
straight-line method over the estimated useful life of the asset. Major alterations and renovations
are capitalized, while maintenance and repair costs are charged to expense as incurred. The
Foundation’s capitalization threshold is $50,000 for individual purchases and $500,000 for bulk
purchases. Service lives are shown below. See Note 3 for additional information.

Description                           Life
ADP Equipment                         3
Office Furniture and Equipment        10

I.        Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by The Foundation
as a result of transactions or events that have already occurred. No liability can be paid,
however, absent an appropriation or SPTF funding. Liabilities for which an appropriation has not
been enacted or SPTF funds received are, therefore, classified as not covered by budgetary
resources, and there is no certainty that the appropriation will be enacted. Also, the Government,
acting in its sovereign capacity, can abrogate liabilities.

J.        Accounts Payable

Accounts payable consists of amounts owed to other federal agencies and trade accounts
payable.

K.     Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. Each year,
the balance in the accrued leave account is adjusted to reflect current pay rates. To the extent
current or prior year appropriations are not available to fund annual leave earned but not taken,
funding will be obtained from future financing sources. Sick leave and other types of nonvested
leave are expensed as taken.




                                                23
                                    Inter-American Foundation
                                   Notes to Financial Statements
                         For the years ended September 30, 2003 and 2002

Note 1.      Summary of Significant Accounting Policies (continued)

L.        Retirement Plans

The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees’ Retirement System (FERS). FERS was established by the enactment of
Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984 elected to
join either FERS and Social Security or remain in CSRS.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and The Foundation makes
a mandatory 1 percent contribution to this account. In addition, The Foundation makes matching
contributions, ranging from 1 to 4 percent, for FERS eligible employees who contribute to their
TSP accounts. In accordance with Federal employee benefit policies, matching contributions are
not made to the TSP accounts established by CSRS employees.

Note 1.      Summary of Significant Accounting Policies (continued)

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, The Foundation remits the
employer’s share of the required contribution. The Foundation's contribution to employee
pension plan were $631,571 for Fiscal Year 2003 and $380,851 for Fiscal Year 2002. In
addition, The Foundation costs for health and life insurance were $301,688 for Fiscal Year 2003
and $256,063 for Fiscal Year 2002.

The Foundation does not report on its financial statements information pertaining to the
retirement plans covering its employees. Reporting amounts such as plan assets, accumulated
plan benefits, and related unfunded liabilities, if any, is the responsibility of the Office of
Personnel Management.

M.        Grant Disbursements and Administrative Expenses

Grant disbursements include payments in advance of performance under contractual obligations.
Evidence of performance is determined by review of periodic expenditure reports. All
Foundation expenditures for grants over $35,000 are independently verified using the
Foundation’s audit guidelines. The Foundation’s administrative expenses are funded solely by
appropriated funds.

N.        Imputed Costs/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An imputed
financing source is recognized by the receiving entity for costs that are paid by other entities.
                                                24
                                    Inter-American Foundation
                                   Notes to Financial Statements
                         For the years ended September 30, 2003 and 2002

Note 1.   Summary of Significant Accounting Policies (continued)

The Foundation recognized imputed costs and financing sources in fiscal years 2003 and 2002 to
the extent directed by the OMB.

O.     Non-Entity Assets and Liabilities

The Foundation did not hold any Non-Entity assets or liabilities as of September 30, 2003 and
2002.

Note 2.   Funds with U.S. Treasury

Entity fund balance includes balances that are available to pay liabilities and to finance
authorized purchase and grant commitments. The Foundation maintains all funds with the
United States Treasury.


                                               2003          2002
  Appropriated Fund                         $ 23,615,118 $ 15,984,802
  Gift Fund                                      124,384      173,503
  Social Progress Trust Fund (SPTF)           14,711,839   12,558,262
      Total Entity Funds                    $ 38,451,341 $ 28,716,567



  Status of Fund Balance with Treasury
                                                  FY 2003        FY 2002
                                                (In Dollars)   (In Dollars)
  Unobligated Balance
     Available                              $    733,522 $ 2,090,491
     Unavailable                               9,212,364    1,566,333
  Obligated Balance not yet Disbursed         28,505,455   25,059,743
  Total                                     $ 38,451,341 $ 28,716,567




                                                25
                                   Inter-American Foundation
                                  Notes to Financial Statements
                        For the years ended September 30, 2003 and 2002

Note 3.       Advances and Prepayments

Grant payments are recorded as an advance and amortized over the estimated useful period
covered by the agreement. First time grant payments are amortized over an eight-month period.
Subsequent payments are amortized over a six-month period. Prepayments are also made to
select government agencies and vendors in advance of receiving the goods or service. Advances
are also permitted for employee travel, although none were outstanding at the end of either 2003
or 2002. Advances and prepayments are detailed on the following page:


                                                       2003               2002
      Prepayments other than Grant Advances      $    49,981         $    98,036
      Grant Advances                               3,565,649           4,711,213
        Total Advances and Prepayments           $ 3,615, 630        $ 4,809,249


Note 4.       Property, Plant and Equipment

The balance of Property, Plant, and Equipment is as follows:



September 30, 2003
                        Depreciation    Service Acquisition Accumulated  Net Book
    Description            Method         Life     Cost     Depreciation  Value
ADP Equipment           Straight Line   3 years $ 127,893 $     127,893 $         -
Office Furniture        Straight Line   10 years   108,011        91,896    16,115
 Total                                           $ 235,904 $    219,789 $ 16,115



September 30, 2002
                        Depreciation    Service Acquisition Accumulated  Net Book
    Description            Method         Life     Cost     Depreciation  Value
ADP Equipment           Straight Line   3 years $ 127,893 $     127,893 $         -
Office Furniture        Straight Line   10 years   108,012        86,458    21,554
 Total                                           $ 235,905 $    214,351 $ 21,554




                                              26
                                   Inter-American Foundation
                                  Notes to Financial Statements
                        For the years ended September 30, 2003 and 2002


Note 5.         Liabilities

The accrued liabilities for The Foundation are comprised of program expense accruals, payroll
accruals, and unfunded annual leave earned by employees. Program expense accruals represent
expenses that were incurred prior to year-end but were not paid. Similarly, payroll accruals
represent payroll expenses that were incurred prior to year-end but were not paid.

Liabilities Covered by Budgetary Reserves                      2003              2002
        Intragovernmental
               Program expenses                            $     12,797      $      2,016
               Payroll Taxes Payable                             22,096            47,896
       Total Intragovernmental                                   34,893            49,912

              Program Expenses                                 316,419            705,268
              Payroll Accrual                                  116,593            197,986
              Payroll Taxes Payable                              1,354                177
       Total Liabilities Covered by Budgetary Resources        469,259            953,343

Liabilities Not Covered by Budgetary Resources
              Unfunded Leave                                   249,456            225,877

Total Liabilities                                          $   718,715       $ 1,179,220


Note 6.         Commitments and Contingencies

In the course of its grant-making activities, The Foundation has unliquidated grant obligations
which, in the absence of violations or cancellations of the grant agreements, will require
disbursements. Unliquidated grant obligations at September 30, 2003 and 2002 total
approximately $23,700,000 and $22,900,000, respectively.

As of September 30, 2003 and 2002, there were no obligations due to canceled appropriations for
which there is a contractual commitment for payment.




                                              27
                                   Inter-American Foundation
                                  Notes to Financial Statements
                        For the years ended September 30, 2003 and 2002

Note 7.       Net Position

The Inter-American Foundation’s net position is composed of unexpended appropriations and
the cumulative results of operations. Net position as of September 30, 2003 and 2002 consisted
of the following:




                                                   2003           2002
Unobligated
     Available                               $       733,522 $ 2,090,491
     Unavailable                                   9,212,364    1,566,333
Undelivered Orders                                28,036,196   28,915,648
Non-appropriated Funds                             2,147,374   (1,380,823)
Total Unexpended Appropriations                   40,129,456   31,191,649

Cumulative Results of Operations                   1,234,916     1,177,585


The category Undelivered Orders consists of the following:
                                                   2003       2002
Unexpended Obligations - Unpaid               $ 24,420,566 $ 24,106,399
Unexpended Obligations - Prepaid                  3,615,630   4,809,249
     Total Undelivered Orders                 $ 28,036,196 $ 28,915,648




                                             28
                                    Inter-American Foundation
                                   Notes to Financial Statements
                         For the years ended September 30, 2003 and 2002


Note 8.        Program Costs

                                                                      FY 2003         FY 2002
Personnel compensation                                            $ 3,285,771     $    2,962,475
Personnel benefits other than pension, health, and life insurance      328,017           275,079
Pension – CSRS                                                          96,614           152,119
Pension – FERS                                                         534,957           228,731
Health insurance                                                       295,444           250,617
Life insurance                                                           6,244             5,446
Benefits to former employees                                                 0               536
Travel and transportation of persons                                   409,370           313,067
Transportation of things                                                 7,574            19,043
Rents, communication, utilities and misc. charges                      408,324           560,958
Printing and reproduction                                              108,294           156,781
Other services                                                       2,451,804         2,145,248
Supplies and materials                                                  34,211            33,277
Equipment                                                              100,136            63,438
Grants, subsidies, and contributions                                14,151,742        15,859,703
Insurance claims and indemnities                                             0           31,000
 Total                                                           $22,218,502      $ 23,057,518

Note 9.        Financing Sources - SPTF

The Statement of Financing reconciles the Financial Net Cost of Operations with obligation of
budget authority. The Foundation’s Statement of Budgetary Resources is based on its SF-133 in
which the Foundation reports SPTF funds obtained from the IDB as offsetting collections earned.
The Foundation had no exchange revenue in fiscal year 2002 or 2003. For fiscal year 2003, the
foundation received $15,256,966 from the IDB, which was report in its SF-133 as funds received
from offsetting collections. For fiscal year 2002, the foundation received $1,381,000 from the
IDB, which was reported in its SF-133 as funds received from offsetting collections.

Note 10.       Explanation of Differences Between the Statement of Budgetary
               Resources and the Budget of the United States Government

The 2005 Budget of the United States Government, with the Actual Column completed for fiscal
year 2003, has not yet been published as of the date of these financial statements. The Budget is
currently expected to be published and delivered to Congress in early February 2004. The 2004
Budget of the United States Government, with the Actual Column completed for fiscal year
2002, has been reconciled.




                                               29
                                  Inter-American Foundation
                                 Notes to Financial Statements
                       For the years ended September 30, 2003 and 2002


Note 11.       Operating Lease

The Foundation occupies office space under a lease agreement, which is accounted for as an
operating lease. The former lease expired on March 31, 2002 and was renewed for 10 years,
expiring March 31, 2012. Lease payments are increased annually based on the Foundation’s
proportionate share of the building’s operating expenses and real estate taxes. The new
agreement allows The Foundation an abatement credit in lieu of a build-out allowance that will
be deducted from the monthly rent for the first 26 months of the lease. Total net rental expense
was $408,324 for fiscal year 2003 and $431,893 for fiscal year 2002. Future minimum lease
payments for office space as of September 30, 2003 are detailed below:




                 Schedule of Future Operating Lease Payments

                                                  Amount
                 FY 2004                            $522,276
                 FY 2005                             561,157
                 FY 2006                             613,075
                 FY 2007                             628,027
                 FY 2008                             643,353
                 FY 2009                             659,061
                                                  $3,626,949




                                               30
Independent Auditor's Report on Internal Control



Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2003 and 2002, and have
issued our report thereon dated October 24, 2003. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the IAF’s internal control over financial
reporting by obtaining an understanding of the IAF’s internal control, determined whether
internal controls had been placed in operation, assessed control risk, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 01-02. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982, such as those controls relevant to ensuring efficient operations. The objective of our
audit was not to provide assurance on internal control. Consequently, we do not provide an
opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the IAF’s ability to
record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Because of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. However, we noted no matters involving the internal
control and its operation that we consider to be material weaknesses as defined above.

In addition, with respect to internal controls related to performance measures reported in the
Management’s Discussion and Analysis (MD&A), we obtained an understanding of the design
of significant internal controls relating to the existence and completeness assertions, as required
by OMB Bulletin No. 01-02. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and, accordingly, we do not provide an opinion on
such controls.

                                                31
This report is intended solely for the information and use of the management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for
International Development, the Office of Management and Budget (OMB), and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.

October 24, 2003




                                            32
   Independent Auditor's Report on Compliance with Laws and Regulations

Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2003 and 2002, and have
issued our report thereon dated October 24, 2003. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

The management of the IAF is responsible for complying with laws and regulations applicable to
the agency. As part of obtaining reasonable assurance about whether the financial statements are
free of material misstatement, we performed tests of the IAF’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 01-02, including the requirements referred to in the Federal Financial
Management Improvement Act (FFMIA) of 1996. We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to the IAF.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph exclusive of FFMIA disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Under FFMIA, we are required to report on whether the IAF’s financial management systems
substantially comply with the Federal financial management systems requirements (FFMSR),
applicable Federal accounting standards, and the United States Standard General Ledger at the
transaction level. The Administrative Resource Center of the Franchise Fund, Bureau of Public
Debt, performs the accounting and reporting functions for the IAF. We are not the auditors of the
Franchise Fund and did not perform tests of compliance with the FFMSR using the
implementation guidance included in Appendix D of OMB Bulletin No. 01-02. Those tests were
performed by other auditors whose report has been furnished to us. Our report, insofar as it relates
to FFMSR compliance, is based solely on the report of the other auditors.

The report of the other auditors on the substantial compliance of the IAF with the requirements of
FFMSR disclosed no instances of substantial non compliance with the FFMSR. Our audit tests
disclosed no instances in which IAF did not substantially comply with Federal accounting
standards and the U.S. Standard General Ledger requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.




                                                33
This report is intended solely for the information and use of the management of the Inter-American
Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for International
Development, the Office of Management and Budget (OMB), and Congress, and is not intended
to be and should not be used by anyone other than these specified parties.

/s/

Gardiner, Kamya & Associates, P.C.

October 24, 2003




                                               34
